              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Concerns Regarding Academic Programs
at the Bonneville Power Administration and
the Savannah River Operations Office




DOE/IG-0668                           December 2004
CONCERNS REGARDING ACADEMIC PROGRAMS AT THE
BONNEVILLE POWER ADMINISTRATION AND THE
SAVANNAH RIVER OPERATIONS OFFICE



TABLE OF
CONTENTS


             OVERVIEW

             Introduction and Objective       1

             Observations and Conclusions     1


             DETAILS OF FINDINGS              3

             BPA Student Training Program     3

             Graduate Level Courses at SRO    4

             Continued Service Agreements     5


             RECOMMENDATIONS                  6


             MANAGEMENT COMMENTS              6


             INSPECTOR COMMENTS               6


             APPENDICES

             A. Scope and Methodology         7

             B. Management Comments           8
Overview

INTRODUCTION       The Office of Inspector General (OIG) initiated a review at two
AND OBJECTIVE      U.S. Department of Energy (DOE) sites in response to allegations
                   involving improper education and tuition reimbursement of
                   Federal employees. It was alleged that two Bonneville Power
                   Administration (BPA) employees were having their college
                   education paid for in full with Federal funds because they were
                   relatives of BPA officials. Additionally, it was alleged that a
                   Savannah River Operations Office (SRO) official used his/her
                   position to establish a master’s degree program paid in full with
                   Federal funds. The courses were allegedly being taught in a
                   location convenient to the Savannah River Site (SRS) to
                   accommodate this official’s participation in the program.

                   The objectives of the inspection were: (1) to review the specific
                   allegations involving the BPA and SRO employees; and (2) to
                   determine if BPA and SRO were following Federal regulations
                   related to employee training programs.

OBSERVATIONS AND   We found that the two BPA employees identified in the allegation
CONCLUSIONS        were receiving Federal funds for their college tuitions and were
                   part of an established student training program along with over 90
                   other BPA employees. Our inspection did not reveal that the two
                   employees received any preferential treatment. Both employees
                   complied with BPA policies and procedures by reporting they were
                   relatives of BPA officials.

                   During the inspection, we identified an issue that we believe
                   warrants further review by BPA officials. Specifically:

                   •   At BPA, student employee training is not being fully
                       documented in the established management information system
                       as required by BPA procedures.

                   Also, we found that SRO had a sole-source contract with the
                   University of Georgia (UGA) to provide master’s degree-level
                   courses near the Savannah River Site in response to the DOE-SRS
                   5-Year Staffing Plan, which forecasts significant attrition in critical
                   professional skill areas. We determined that the official identified
                   in the allegation participated in the program and was involved in
                   the approval process for the contract; however, we did not
                   substantiate any inappropriate influence by the official in
                   establishing the program or placing the course site at a location
                   convenient to the official.



Page 1                           Concerns Regarding Academic Programs at the
                                 Bonneville Power Administration and the
                                 Savannah River Operations Office
         During the inspection, we identified other issues that we believe
         warrant further review by SRO officials. Specifically:

         •   SRO officials lacked documentation of how they identified
             UGA as the sole-source contractor;

         •   The costs associated with the sole-source contract between
             SRO and UGA appear excessive when compared to courses
             provided by local accredited universities; and

         •   SRO officials did not execute continued service agreements
             that obligate employees to additional Federal service in return
             for paid training as required in DOE Manual 360.1.1-B,
             Federal Employee Training Manual.

         This report complements an OIG audit report entitled
         “Management Controls over Contractor Tuition Reimbursements
         for Courses Leading to Degrees at Non-Accredited Educational
         Institutions” (OAS-M-04-07, September 2004). In the audit report,
         the OIG observed that certain DOE contractors reimbursed
         employees for courses and degree programs without ensuring that
         the institutions offering the courses provided legitimate academic
         training that would benefit the Department.




Page 2                                    Observations and Conclusions
Details of Findings

BPA STUDENT           We found that the two individuals identified in the allegation
TRAINING PROGRAM      complied with BPA policies and procedures by reporting they were
                      relatives of BPA officials. The two individuals attend college and
                      work at BPA under the Student Career Experience Program
                      (SCEP), one of two sub-programs of the BPA Student Educational
                      Experience Program (SEEP). Under the SCEP, BPA recruits
                      students to meet business challenges, achieve diversity goals, and
                      solve long-term and short-term staffing needs.

                      BPA policies and procedures allow individuals to participate in the
                      SEEP program if they are a relative of another BPA employee by
                      satisfying certain nepotism restrictions. We found that both
                      individuals adhered to the “nepotism” restrictions as outlined in
                      BPA policies and procedures.

Training              We found, however, that student employee training is not being
Documentation         fully documented in the Human Resource Management
                      Information System (HRMIS) in accordance with BPA Personnel
                      Letters 213-1 and 410-1. We noted that this was a problem with
                      respect to SCEP participants who were required to sign continued
                      service agreements and whose tuitions were paid by BPA.

                      We determined that over 90 percent of the SCEP participants did
                      not have the training that was paid by BPA entered into the
                      HRMIS system. We were told by an official in the DOE
                      Headquarters Office of Corporate Policy and Career Development
                      that if BPA pays for training and requires a continued service
                      agreement, a record needs to be generated in BPA’s human
                      resources management information system. As required by BPA
                      procedure, SCEP participants execute continued service
                      agreements, obligating them for additional service in return for
                      paid training. The DOE Headquarters official said that the official
                      training record is important because BPA might need the record if
                      an employee who had signed a continued service agreement broke
                      the agreement.




Page 3                                                              Details of Findings
GRADUATE LEVEL         We found that SRO has a sole-source contract with UGA to
COURSES AT SRO         provide master’s degree-level courses near SRS in response to the
                       DOE-SRS 5-Year Staffing Plan, which forecasts attrition in many
                       critical business professional skill areas such as contracts
                       management, human resources management, and financial
                       management. We determined that the official identified in the
                       allegation participated in the program and was involved in the
                       approval process for the contract; however, we did not substantiate
                       any inappropriate influence by the official in establishing the
                       contract. In addition, there were a number of reviews and
                       approvals of the contract at levels of authority higher than this
                       particular official, to include the SRO Manager.

                       SRO employees were made aware of the availability of the UGA
                       courses through a blanket electronic mail message to all SRO
                       personnel in March 2001. The program is able to accommodate a
                       maximum of 15 students. The participants can take one or all of
                       the courses under the SRO program contingent upon their
                       supervisor’s approval. Completion of the full four-year program
                       could qualify the employee for a master’s degree. It is, however,
                       the employee’s responsibility to apply directly to UGA under its
                       graduate admissions program, and pay any application fees or
                       other fees required by UGA.

                       According to Title 5 of the Code of Federal Regulations, degree
                       producing programs are normally prohibited except under certain
                       recruitment and retention conditions, which are specifically
                       identified in the regulations. According to an SRO Human
                       Resources official, the courses are only intended to provide
                       training to SRO employees in response to the DOE-SRS 5-Year
                       Staffing Plan, even though the courses are taught at the graduate
                       level and could result in a degree.

Documentation          We determined that SRO officials lacked documentation of
Supporting SRO         how they identified UGA as the sole-source contractor to provide
Sole-Source Contract   master’s degree-level courses. An SRO Human Resources official
                       stated that he conducted “market research” by meeting with and/or
                       sending electronic mail messages to five prospective universities to
                       determine their ability to perform the training, but that only UGA
                       was responsive. The other four universities either did not respond
                       or did not demonstrate a willingness or ability to provide the
                       courses. The SRO Human Resources official who contacted the
                       universities could not provide us with records of the contacts and
                       responses from all the universities.




Page 4                                                               Details of Findings
                    We determined that there are other universities in the local area
                    that could provide the training, some of which have previously
                    offered courses to SRS employees. We contacted one of these
                    universities, Troy State University, and learned that they could
                    provide a similar program to UGA’s program, and at less than one-
                    half the cost of the UGA program. Troy State University is
                    currently providing undergraduate courses on-site at SRS facilities,
                    primarily to SRS Wackenhut Services, Incorporated, employees.

Costs of SRO        The costs associated with the sole-source contract between SRO
Sole-Source         and UGA appeared to be excessive when compared to costs of
Contract            similar courses provided by local accredited universities. SRO
                    entered into a sole-source contract with UGA to provide four
                    master’s degree-level courses per year at an annual cost of
                    $140,000, including travel and lodging expenses for the professor
                    as well as all tuition, activity fees and book expenses for the
                    students. The series of courses was originally expected to last four
                    years.

                    SRO officials acknowledged that they did not compare the costs
                    UGA quoted for the tuition, fees and other expenses to those
                    charged by other universities. In addition, we learned that the
                    usual out-of-state tuition for UGA graduate students, including the
                    costs of all activity and associated fees and books for all attendees,
                    was almost one-third less than the $140,000 being charged to SRO
                    by UGA under the contract.

CONTINUED SERVICE   Participants in the UGA courses at SRO were not required to sign
AGREEMENTS          continued service agreements. DOE Manual 360.1.1-B, however,
                    requires a continued service agreement for each training activity
                    that exceeds 160 training hours. The continued service agreement
                    must be signed prior to the employee’s participation in the covered
                    training. Each of the four courses provided at SRO involves 4
                    hours each week covering a span of 11 weeks for a total of 176
                    hours of training per year. Therefore, any student who completes a
                    year of the program would receive training in excess of 160 hours,
                    and any student who completes the entire four year program would
                    have received training far exceeding the number of training hours
                    requiring an agreement. DOE Manual 360.1.1-B identifies five
                    exemptions for the continued service obligation. The exemptions
                    involve single work assignments; mentoring/on-the-job training;
                    correspondence courses; training for the purpose of installation of
                    equipment; or training under a performance improvement plan.
                    The UGA courses funded by SRO do not fall into any of the
                    exemption areas identified in DOE Manual 360.1.1-B.



Page 5                                                              Details of Findings
RECOMMENDATIONS   We recommend that the Administrator, BPA:

                  1. Ensure all training that requires a continued service agreement
                     is documented in HRMIS, as required by BPA procedures.

                  We recommend that the Manager, SRO:

                  2. Ensure that the steps taken to identify prospective sole-source
                     contractors are documented in the procurement file.

                  3. Determine the reasonableness of the costs associated with the
                     UGA sole-source training contract compared to training
                     available from other accredited universities.

                  4. Ensure that continued service agreements are signed in
                     accordance with DOE Manual 360.1.1-B.

MANAGEMENT        In comments on our draft report, management concurred with our
COMMENTS          recommendations and stated that corrective actions are underway.

INSPECTOR         We found managements’ comments to be generally responsive to
COMMENTS          our report. SRO management stated that the requirement to sign
                  continued service agreements in accordance with DOE Manual
                  360.1.1-B did not apply to the UGA training activities because the
                  UGA contract was structured as separate training events and did
                  not constitute a “program.” However, the SRO course
                  advertisement that we reviewed during the inspection identified the
                  courses provided by UGA as an MBA (Masters in Business
                  Administration) program. Also, both SRO and UGA officials
                  advised us that the courses were an MBA program. Therefore, the
                  continued service agreement requirements appear to have been
                  applicable to those individuals who received in excess of 160 hours
                  of training.




Page 6                                                    Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     This inspection was conducted in accordance with the “Quality
METHODOLOGY   Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency. As part of our inspection, we interviewed
              DOE officials at BPA and SRO. We reviewed pertinent records
              and documents pertaining to training and payment of tuition for
              Federal employees. Further, we reviewed applicable policies,
              procedures, guidelines, regulations, and published reports.

              The Government Performance and Results Act (GPRA) of 1993
              was enacted to improve Federal program effectiveness and public
              accountability by promoting a new focus on results-oriented
              management. As part of our inspection, we evaluated the
              Department’s implementation of GPRA as it applied to the
              programs we reviewed.




Page 7                                                Scope and Methodology
Appendix B




Page 8       Management Comments
Page 9   Management Comments
Page 10   Management Comments
                                                                    IG Report No. DOE/IG-0668

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
